                      CLOSEOUT FOR X95050017
                                               1995 letter from
                                               (the complainant)   He
                                               .
                                               L
                      d     (the      a , Drs. )
                              n Center)
                                             have been guilty of
                                               account research by
other scientists that is relevant to the subjects' work.
     The complainant alleges that the subjects have neglected
research that is important for addressing the scientific problems
on which the subjects work. He does not allege that the subjects
have used the research of others and then misappropriated credit
for it. The complainant's allegation raises questions about the
subjects' scientific judgment and their command of the relevant
scientific literature. In so doing, it raises questions about the
programmatic value of NSF funding for the Center. The complainant
does not, however, raise questions about the subjects' adherence to
the ethical norms of the scientific community.
     The complainant neither presents evidence nor makes an
allegation of misconduct in science. This inquiry is closed and no
further action will be taken on this case.




                           page 1 of 1
